OIG Investigative Reports, Former CEO of Charter School Sentenced to 37 Months on Fraud, Theft and Tax Charges
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
For Immediate Release
U.S. Department of Justice
United States Attorney
Eastern District of Pennsylvania
615 Chestnut Street
Suite 1250
Philadelphia, Pennsylvania 19106-4476
(215) 861-8200
October 22, 2009
FORMER CEO OF CHARTER SCHOOL SENTENCED TO 37 MONTHS ON FRAUD, THEFT AND TAX CHARGES
PHILADELPHIA - Kevin O'Shea, 50, of Philadelphia, was sentenced today to 37
months in prison for mail fraud, theft from a federally funded program, and filing a false tax
return. At the time of the crimes, O'Shea's was working for and defrauding the Philadelphia
Academy Charter School (PACS), announced United States Attorney Michael L. Levy.
In July 2009, O'Shea entered a guilty plea admitting that he stole between $400,000 and
$1 million from PACS by: (1) using approximately $710,000 in PACS' funds to purchase a
building in the name of his purported non-profit business; (2) demanding kickbacks from PACS
vendors; (3) submitting for reimbursement at least $40,000 in fraudulent invoices for personal
meals, entertainment, home improvements, and gas and telephone bills; (4) having
approximately $50,000 worth of home repairs improperly billed to PACS; (5) collecting
approximately $34,000 in rent from entities using PACS facilities; and (6) hiring a computer
firm in an attempt to destroy computer evidence to obstruct this investigation. O'Shea also
admitted to filing a false tax return for 2006.
In addition to the prison term, U.S. District Court Judge Eduardo C. Robreno ordered
O'Shea to pay restitution in the amount of $900,000, to forfeit $500,000, and pay a $1,000 fine.
O'Shea must report to prison by December 7, 2009.
The case was investigated by the United States Department of Education Office of
Inspector General, the Federal Bureau of Investigation, and the Internal Revenue Service
Criminal Investigation Division. The School District of Philadelphia's Office of Inspector
General assisted in the investigation. It was prosecuted by Assistant United States Attorney
Derek A. Cohen.
UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT, PENNSYLVANIA
Suite 1250, 615 Chestnut Street
Philadelphia, PA 19106
Contact:  PATTY HARTMAN
Media Contacts
215-861-8525
Top
Printable view
Last Modified: 10/23/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov